                                      SOCIAL SECURITY

MEMORANDUM


Date:   December 11, 2003                                                            Refer To:

To:     James C. Everett
        Regional Commissioner
         Denver

From:   Assistant Inspector General
         for Audit

Subject: Administrative Costs Claimed by the Colorado Disability Determination Services
        (A-15-03-13044)

        The attached final report presents the results of our audit. Our objectives were to:
        1) determine whether costs claimed by the State of Colorado Disability Determination
        Services (CO-DDS) on the State Agency Report of Obligations for SSA Disability
        Programs for the period October 1, 1999 through September 30, 2002, were allowable
        and properly allocated; 2) determine whether the aggregate of the Social Security
        Administration funds drawn down agreed with total expenditures for Federal Fiscal
        Years 2000, 2001 and 2002; and 3) evaluate internal controls over the accounting and
        reporting of the administrative costs claimed, as well as the draw down of SSA funds.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Frederick C. Nordhoff, Director, Financial Audit Division, at (410) 966-6676.




                                                            S
                                                            Steven L. Schaeffer

        Attachment

        cc:
        Lenore R. Carlson, Associate Commissioner, Office of Disability Determinations
        Jeffrey Hild, Associate Commissioner, Office of Policy and Financial Operations
        Candace Skurnik, Director, Audit Management and Liaison Staff
        William Starks, Director, Disability Determination Services
        Marva Livingston Hammons, Executive Director, Colorado Dept. of Human Services
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      ADMINISTRATIVE COSTS
         CLAIMED BY THE
      COLORADO DISABILITY
     DETERMINATION SERVICES

  December 2003   A-15-03-13044




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Executive Summary
OBJECTIVE
Our objectives were to: (1) determine whether costs claimed by the State of Colorado
Disability Determination Services (CO-DDS) on the State Agency Report of Obligations
for SSA Disability Programs (Form SSA-4513) for the period October 1, 1999 through
September 30, 2002, were allowable and properly allocated, (2) determine whether the
aggregate of funds drawn down agreed with total expenditures for Federal Fiscal Years
(FFY) 2000, 2001, and 2002, and (3) evaluate internal controls over the accounting and
reporting of the administrative costs claimed, as well as the draw down of Social
Security Administration (SSA) funds.

BACKGROUND
Disability determinations under SSA’s Disability Insurance and Supplemental Security
Income programs are performed by disability determination services (DDS) in each
State or other responsible jurisdiction. Such determinations are to be performed in
accordance with applicable Federal law and underlying regulations. In carrying out its
obligation, each DDS is responsible for determining claimants’ disabilities and ensuring
that adequate evidence is available to support its determinations. To assist in making
proper disability determinations, each DDS is authorized by SSA to purchase medical
consultative examinations (CE) to supplement evidence obtained from the claimants’
physicians or other treating sources. SSA reimburses the DDS for 100 percent of the
allowable reported expenditures made on behalf of SSA.

RESULTS OF REVIEW
We found: 1) some of the costs claimed were not allowable and properly allocated,
2) the aggregate of funds drawn agreed with the total expenditures, and 3) several
internal control weaknesses existed over the accounting for and reporting of
administrative costs as well as the draw down of SSA funds.

The CO-DDS did not always adhere to SSA policies and procedures relating to CE
costs. CO-DDS claimed reimbursement for missed CE appointments contrary to SSA
instructions. We also found CE fees were paid in excess of its fee schedule and certain
procedures on the CO-DDS fee schedule exceeded Medicare’s approved rate – the
highest allowable rate for the same or similar type service. Colorado also claimed
reimbursement for indirect costs using outdated cost allocation plans and claimed costs
that were not in the approved plan.

In addition, we noted certain internal control weaknesses related to accounting for and
reporting of administrative costs. We found transactions recorded in the wrong FFY,
cash draws for incorrect FYs, and weak internal controls over checks.

Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                                 i
CONCLUSION AND RECOMMENDATIONS
We determined that SSA should be reimbursed for certain costs claimed by the
CO-DDS. We also identified areas where internal controls were weak and could be
improved.

We recommend the CO-DDS reimburse SSA a total of $272,830 for broken
appointments (no shows) for CEs. SSA should work with CO-DDS in evaluating the
reasonableness of its fee schedule. We also recommend the DDS reimburse SSA
$237,059 for indirect costs erroneously allocated through the automated allocation
process. Colorado should develop a process that would ensure the timely submission
and approval of indirect cost allocation plans. In addition, we made recommendations
to improve internal controls over the accounting for and reporting of administrative
costs.

AGENCY COMMENTS
SSA agreed with nine of the eleven recommendations in our draft report. It did not
agree with two recommendations. SSA disagreed with recommendation 1 for the
CO-DDS to reimburse SSA for paying CEs in excess of its fee schedule. SSA stated
that the contracts to certain providers should be included as part of the fee schedule.
SSA also disagreed with recommendation 3 for the CO-DDS to stop paying for “no
shows” and reimburse SSA for amounts paid for “no shows.” SSA stated that it believes
the CO-DDS pays an administrative fee, which is allowed, and this is simply an error in
coding the costs. The full text of SSA’s comments is included in Appendix C.

CDHS COMMENTS
CDHS agreed with seven of the eleven recommendations in our draft report and
partially agreed with one recommendation. CDHS did not agree with three
recommendations. The recommendations the CDHS disagreed with are
recommendations regarding paying CEs in excess of the fee schedule, paying for “no
shows,” and refunding $237,059 to SSA caused by inconsistencies between the
automated allocation process and the approved indirect cost allocation plan. CDHS
also disagreed with our finding that CE fees were paid in excess of the Medicare fee
schedule. However, we did not make a specific recommendation on this matter. The
full text of CDHS’ comments is included in Appendix D.

OIG RESPONSE

Based on comments from CDHS, we have withdrawn the recommendation regarding
CEs paid in excess of the fee schedule. However, we continue to believe the fee
schedule should be updated on an ongoing basis and rate changes should be
documented. We commend the actions taken to compare the CO-DDS fee schedule to
that of the Department of Labor. We did not change the recommendation regarding
paying for “no shows.” We continue to believe that the CO-DDS should obtain an

Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                             ii
exemption if it wants to continue paying for “no shows.” Regarding the refund for
indirect costs not properly allocated, we maintain that the allocation of services is not
fair and reasonable, despite the plan being approved.




Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                                  iii
                                                       Table of Contents
                                                                                                                  Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

  Consultative Examinations ...................................................................................4

  Cost Allocation Plans............................................................................................8

  All Other Non-Personnel Costs...........................................................................10

  Cash Draws ........................................................................................................11

  Internal Controls over Checks ............................................................................12

  Other Matters......................................................................................................13


CONCLUSIONS AND RECOMMENDATIONS.....................................................14

APPENDICES

Appendix A – Disability Determination Services Administrator’s Letter No. 536

Appendix B – Costs to be Reimbursed to SSA

Appendix C – Agency Comments

Appendix D – CDHS Comments

Appendix E – OIG Contacts and Staff Acknowledgments




Administrative Costs Claimed by the CO-DDS (A-15-03-13044)
                                                              Acronyms


 ASAP                      Automated Standard Application for Payments
 CE                        Consultative Examination
 CFR                       Code of Federal Regulations
 CO-DDS                    Colorado Disability Determination Services
 CDHS                      Colorado Department of Human Services
 CPT                       Current Procedural Terminology
 DCA                       Division of Cost Allocation
 DDS                       Disability Determination Service
 DI                        Disability Insurance
 FFY                       Federal Fiscal Year
 Form SSA-872              The State Agency Obligational Authorization for Disability Programs
 Form SSA-4513             State Agency Report of Obligations for SSA Disability Programs
 HHS                       Department of Health and Human Services
 IS                        Information System
 OD                        Office of Disability
 OIG                       Office of the Inspector General
 OMB                       Office of Management and Budget
 POMS                      Program Operations Manual System
 SFY                       State Fiscal Year
 SSA                       Social Security Administration
 SSI                       Supplemental Security Income




Administrative Costs Claimed by the CO-DDS (A-15-03-13044)
                                                             Introduction
OBJECTIVE
Our objectives were to: (1) determine whether costs claimed by the State of Colorado
Disability Determination Services (CO-DDS) on the State Agency Report of Obligations
for SSA Disability Programs (Form SSA-4513) for the period October 1, 1999 through
September 30, 2002, were allowable and properly allocated; (2) determine whether the
aggregate of the Social Security Administration (SSA) funds drawn down agreed with
total expenditures for Federal Fiscal Years (FFY) 2000, 2001 and 2002; and
(3) evaluate internal controls over the accounting and reporting of the administrative
costs claimed, as well as the draw down of SSA funds.

BACKGROUND
The Disability Insurance (DI) program provides benefits to wage earners and their
families in the event the wage earner becomes disabled. The Supplemental Security
Income (SSI) program is a nationally uniform program that provides income to
financially needy individuals who are aged, blind and/or disabled. SSA implements the
general policies governing development of disability claims under the DI and SSI
programs. Disability determinations under the DI and SSI programs are performed by
disability determination services (DDS) in each State or other responsible jurisdiction.
Such determinations are to be performed in accordance with Federal law and
underlying regulations.

The CO-DDS is a component of the State of Colorado Department of Human Services
(CDHS). Parent agencies, such as the CDHS, often provide administrative services to
the State DDS agencies. These administrative services include accounting, purchasing,
and personnel.

In carrying out its obligation, each DDS is responsible for determining claimants’
disabilities and ensuring that adequate evidence is available to support its
determinations. To assist in making proper disability determinations, each DDS is
authorized by SSA to purchase consultative examinations (CE) such as medical
examinations, x-rays and laboratory tests to supplement evidence obtained from the
claimants’ physicians or other treating sources.1

SSA authorizes an annual budget to reimburse the DDS for 100 percent of allowable
expenditures.2 Once approved, the DDS withdraws Federal funds through the
Department of Treasury’s (Treasury) Automated Standard Application for Payments
(ASAP) system. Cash is drawn from the Treasury to pay for program expenditures. At
the end of each fiscal quarter, the DDS submits Form SSA-4513 to account for program
disbursements and unliquidated obligations. Indirect costs are allocated according to


1
 20 C.F.R. §§ 404.1614(a) and 416.1014(a) and POMS DI 39545.205.
2
 20 C.F.R. §§ 404.1626 and 416.1026.
Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                             1
the CDHS Cost Allocation Plan, which is approved by the United States Department of
Health and Human Services (HHS) on behalf of the Federal Government.

SCOPE AND METHODOLOGY
We reviewed the administrative costs the CO-DDS reported on its Form SSA-4513 for
FFYs 2000 through 2002. For the periods under audit, we obtained evidence to
evaluate recorded financial transactions in terms of it being allowable under the Office
of Management and Budget (OMB) Circular A-87, Cost Principles for State, Local and
Indian Tribal Governments, and appropriateness, as defined by SSA’s Program
Operations Manual System (POMS).

As of September 30, 2002, the program obligations reported by CO-DDS on the Form
SSA-4513s were as follows:

REPORTING ITEM                             FFY 2000          FFY 2001        FFY 2002


Disbursements:
   Personnel                                $ 7,138,787      $ 7,806,338      $ 8,723,770
   Medical                                    3,336,005        3,941,408        3,727,909
   Indirect Costs                             1,348,727        1,269,133        1,195,575
   All Other Non-Personnel                    1,580,578        1,962,930        1,701,792
   Less: State Medicaid Costs                         0        (192,670)        (933,234)
 Total Disbursements                        13,404,097        14,787,139      14,415,812

Unliquidated Obligations:
   Personnel                                           0              0             2,754
   Medical                                             0         14,136           636,388
   All Other Non-Personnel                             0              2            56,483
 Total Unliquidated Obligations                        0         14,138           695,626

Total Obligations:                         $13,404,097       $14,801,277     $15,111,438

We also:

   •   Reviewed applicable Federal regulations and pertinent parts of POMS DI 39500,
       DDS Fiscal and Administrative Management;

   •   Reviewed audit work performed by the Colorado Office of the State Auditor;

   •   Interviewed staff at the CO-DDS and its parent agency, CDHS;

   •   Reviewed the CO-DDS policies and procedures and the Memorandum of
       Understanding between SSA and the CO-DDS for non-SSA work;



Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                                 2
   •   Evaluated and tested internal controls over the accounting and reporting of the
       administrative costs claimed;

   •   Examined the administrative expenditures (personnel, medical services, indirect
       costs and all other non-personnel costs) incurred and claimed by the CO-DDS,
       on a test basis, for FFYs 2000 through 2002 on the Form SSA-4513;

   •   Reconciled the accounting records to the administrative costs reported by the
       CO-DDS on the Form SSA-4513;

   •   Analyzed CO-DDS’ draw downs of SSA funds and the related internal controls,
       as well as reconciled them with reported expenditures;

   •   Conducted a physical inventory of capitalized assets of the CO-DDS;

   •   Analyzed data from the Colorado Financial Reporting System, maintained by
       CDHS and CE/medical evidence of record data on the Wang system, maintained
       by CO-DDS; and

   •   Tested the reliability of the data provided by the two above systems by
       conducting analytical tests, reconciling the amounts to the Forms SSA-4513, and
       tracing the data back to the source documentation.

We determined that computerized data used in the report was sufficiently reliable given
the audit objectives and intended use of the data, and should not lead to incorrect or
unintentional conclusions. We performed work in Denver, Colorado at the CO-DDS, the
CDHS, and the Colorado Office of the State Auditor. We conducted our fieldwork from
October 2002 through June 2003. The audit was conducted in accordance with
generally accepted government auditing standards.




Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                               3
                                                Results of Review
We found: 1) some of the costs claimed were not allowable and properly allocated,
2) the aggregate of funds drawn agreed with the total expenditures, and 3) several
internal control weaknesses existed over the accounting for and reporting of
administrative costs, as well as the draw down of SSA funds.

Our review of administrative costs claimed by the CO-DDS disclosed that the DDS
improperly paid for missed appointments for CEs, and paid CE fees in excess of its fee
schedule and in excess of the highest allowable (Medicare) fees. Colorado was also
reimbursed for indirect costs based on unapproved cost allocation plans and costs
claimed that were not in the approved plan.

We also identified several internal control weaknesses involving accounting for and
reporting of administrative costs. We found there were: 1) transactions recorded in the
wrong FFY, 2) cash draws charged to the incorrect FFY, and 3) weak internal controls
over the safeguarding of checks.

CONSULTATIVE EXAMINATIONS
The DDS obtains medical information necessary to determine if the applicant meets the
eligibility criteria for DI or SSI benefits. When existing medical evidence is insufficient,
not available or cannot be obtained, the DDS is authorized to purchase a CE. The
DDSs establish fee schedules for each procedure it purchases. Each procedure in the
fee schedule is identified by a Current Procedural Terminology (CPT) code.3

We identified three issues relating to unallowable CO-DDS’ payments for CEs. First,
medical providers were paid in excess of the CO-DDS’s fee schedule. Second, certain
fees on the CO-DDS fee schedule exceeded the highest allowable rate. Lastly,
CO-DDS was paying medical providers for broken appointments.

FEES PAID IN EXCESS OF FEE SCHEDULE

We found that CO-DDS had paid for CE fees in excess of its own CE fee schedule.
SSA’s POMS4 states:

    “The State will determine the rates of payment for medical or other services that are
    necessary to make a disability determination. The DDS will consider its fee
    schedule as a maximum payment schedule. Authorized payments will represent the
    lower of either:
       • the provider’s usual and customary charge or,
       • the maximum allowable charge under the fee schedule.”

3
  The term is defined by the American Medical Association and is used to identify each procedure in the
fee schedule.
4
  POMS DI 39545.210 1.a. and b.
Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                                             4
The following table shows the excess fee amounts that were paid for consultative
examinations during the 3-year period of our review.

            Federal Fiscal Year          Amount Paid in Excess of the
                                           CO-DDS Fee Schedule
                     2000                         $76,050
                     2001                         111,505
                     2002                              185
                     Total                       $187,740

For example, in FFY 2000 and FFY 2001 CO-DDS CPT code 2–comprehensive
examination–internist had an established fee of $105. We found that the CO-DDS paid
between $110 and $150 for this examination.

During our audit, we noted the CO-DDS did not update its fee schedule for CEs from
October 1, 1989 to October 1, 2001. The CO-DDS had been alerted to this issue
earlier. The Colorado State Auditor’s Office issued an audit report dated October 31,
1997,5 which stated that although the CO-DDS had a fee schedule, this schedule was
established 9 years ago and may not appropriately reflect current rates. We found that
the CO-DDS continued to use this outdated fee schedule for 4 more years. Although
the fee schedule had not been updated, it was the fee schedule in effect for our audit
period.

FEES PAID IN EXCESS OF MEDICARE

We found that the CO-DDS paid CE fees in excess of Medicare fee schedules by
$1,126,1716 during FFYs 2000 through 2002,7 based on a query of CO-DDS’ records.
According to Federal regulations8, the rates of payment used by the State may not
exceed the highest rate paid by Federal or other agencies in the State for the same or
similar type of service. In addition, POMS9 states, “The State will maintain
documentation to support the rates of payment it uses.” The CO-DDS did not maintain
a fee schedule that was relative to other State or Federal agencies. Nor did the
CO-DDS maintain documentation to support the fee schedules in effect during our audit
period. Because no other Colorado State agency used a similar fee schedule, we
compared the CO-DDS fee schedule to a federally established fee schedule, Medicare
Physician Fee Schedules,10 to determine the reasonableness of CE fees.




5
  State of Colorado, State Auditor’s Office, Independent Auditor’s Report on Compliance with
Requirements Applicable to Each Major Program and Internal Control Over Compliance In Accordance
with OMB Circular A-133, October 31, 1997.
6
  The amount of fees reported as excess of Medicare fees are exclusive from those fees reported above
as in excess of the CO-DDS fee schedule.
7
  We used actual fees paid (which often differ from scheduled fees) to calculate this number.
8
  20 C.F.R. §§ 404.1624 and 416.1024.
9
  POMS DI 39545.210 1.c.
10
   Department of Health and Human Services, Centers for Medicare and Medicaid Services, Medicare
Physician Fee Schedule.
Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                                           5
                  Federal Fiscal         Fees Paid in Excess of Medicare
                      Year                             Fees
                2000                                             $231,187
                2001                                              288,901
                2002                                              606,083
                Total                                          $1,126,171

As an example, in FFY 2000 CPT code 731--speech and language evaluation--had an
established fee of $100. The Medicare fee for this service for Calendar Year 200011
was $62.14. The CO-DDS fee exceeded the allowable (Medicare) fee by $37.86.

An October 31, 1997, State Auditor’s report indicated that the Division of Disability
Determination Services is not adequately monitoring its fees. Specifically, the report
read:

     “…staff reported that they sometimes make informal case-by-case adjustments to
     the fees based on limited availability of physicians in some geographic areas and the
     specialization that a procedure may require. … we noted that federal regulations
     provide that fees paid for medical procedures should not exceed the highest rates
     paid by federal or other state agencies for the same or similar types of service.
     However, Division staff indicated that they do not monitor for this requirement when
     higher fees are paid than those set out in the fee schedule.”12

The CO-DDS sent a letter to the SSA Regional Commissioner on April 9, 1999,
addressing some of the issues in the State Auditor’s report. The letter stated that, “The
review of current fee schedule is completed.… This fee revision is in process. It will
include a comparison with Medicaid maximum fees allowable….” During our audit, we
found no documentation that the comparison with Medicaid fees exercise was ever
completed. As stated earlier, the CO-DDS fee schedule was not revised until
September 28, 2002.

In January 1999, SSA’s Office of Disability (OD) convened a workgroup to provide
guidance for establishing fee schedules for medical procedures.13 The workgroup
stated that each State should be cost-efficient and make every attempt to negotiate fees
below the highest allowable rates. However, the workgroup concluded that the
maximum payment rates shall be based on the Medicare fee schedule for the same or
similar types of service.




11
   The Medicare Physician Fee Schedule is on a calendar year basis. Our review was based on Federal
Fiscal Year. Therefore, for test purposes we used the Medicare fee in effect at the time of each
transaction reviewed.
12
   State of Colorado, State Auditor’s Office, Independent Auditor’s Report on Compliance with
Requirements Applicable to Each Major Program and Internal Control Over Compliance In Accordance
with OMB Circular A-133, October 31, 1997.
13
   SSA, Office of Disability, Medical Procedures Fee Schedule Workgroup Report, January 1999.
Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                                        6
CONSULTATIVE EXAMINERS PAID FOR MISSED APPOINTMENTS

In 1987, the HHS Office of Inspector General (HHS/OIG) reported14 that 28 States,
including Colorado, were paying for broken CE appointments. The HHS/OIG
recommended to SSA that it pursue a policy that would preclude payment for broken
CE appointments. SSA agreed with the HHS/OIG’s recommendation. In a 1996 follow-
up audit,15 SSA/OIG found that 17 States were paying for broken CE appointments. In
that report, SSA/OIG recommended that SSA implement a policy to only pay for
services rendered. SSA agreed with the recommendation.

                        On April 25, 2000, SSA issued Disability Determination
 CO-DDS Did Not         Services Administrator’s Letter No.536, regarding the no-pay
 Follow SSA Policy      policy for missed CE appointments. The letter allowed for
 for Missed             case-by-case exemptions for unique situations. The DDS was
 Appointments           to work with the SSA regional office to prepare a request and
                        submit the request along with supporting documentation to the
OD for final approval. OD informed us that, as of April 2003, it had not received such a
request from the CO-DDS.

CO-DDS’ policy was to pay providers for a review of medical records if the CE
appointment was cancelled 24 hours or less before the appointment date. CO-DDS
stated that the payment was for the medical providers’ review of records. We reviewed
invoices submitted for “no shows.” The majority of the invoices reviewed only had “no
show” written on them and did not contain a request for payment for administrative
review.

The CO-DDS refers to these appointments as “no shows,” and uses CPT code 999 to
record these fees at a cost of $25. We queried the CO-DDS’ records for CPT code 999
and determined that 10,837 payments for missed appointments were made to providers
amounting to $272,830 during the 3-year period of our review.

          FEDERAL            NUMBER OF CODE 999 CES                    AMOUNT PAID
        FISCAL YEAR

             2000                           3,732                           $93,875
             2001                           3,575                            90,230
             2002                           3,530                            88,725
             Total                         10,837                          $272,830




14
   HHS/OIG, Payments under the Disability Determination Program for Medical Appointments Broken by
Claimants of Disability Insurance and Supplemental Security Income (A-01-87-02004), October 1987.
15
   SSA/OIG, Follow-up Audit Payments under the Disability Determination Program for Medical
Appointments Broken by Claimants of Disability Insurance and Supplemental Security Income
(A-01-95-02007), July 1996.

Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                                       7
COST ALLOCATION PLANS

The DDS must report all indirect costs that the State government has charged against
the disability program for costs incurred during the period covered by the report.16 The
CDHS used a cost allocation plan17 to allocate indirect costs. OMB Circular A-87
requires each State to submit a plan to the HHS for each year in which it claims central
service costs under Federal awards.18

We found that CO-DDS had not submitted timely revisions to its cost allocation plans for
approval and the automated allocation process for an approved plan was not strictly
followed.

SUBMISSION OF COST ALLOCATION PLANS

                        The CDHS did not submit its State Fiscal Year (SFY) 2001 or
 The CDHS has not       SFY 2002 Public Assistance Cost Allocation Plans in a timely
 Submitted Cost         manner. The Colorado SFY ends on June 30 each year. The
 Allocation Plans in    SFY 2001 cost allocation plan was not submitted for approval
 a Timely Manner        until February 22, 2002 – nearly 8 months after the close of the
                        SFY. The SFY 2001 cost allocation plan was approved on
July 30, 2002 – 13 months after the close of the SFY. The SFY 2002 cost allocation
plan was not submitted for approval until May 23, 2003 – nearly 11 months after the
close of the SFY. As of June 30, 2003, the Director, Division of Cost Allocation (DCA)
had not yet approved the SFY 2002 cost allocation plan.

The Code of Federal Regulations (CFR), Title 45, section 95.509 states that:

     “(a) The State shall promptly amend the cost allocation plan and submit the
     amended plan to the Director, DCA [Division of Cost Allocation] if any of the
     following events occur:

        (1) The procedures shown in the existing cost allocation plan become
        outdated because of organizational changes, changes in Federal law or
        regulations, or significant changes in program levels, affecting the validity of
        the approved cost allocation procedures…

     (b) If a State has not submitted a plan or plan amendment during a given State
     fiscal year, an annual statement shall be submitted to the Director, DCA certifying
     that its approved cost allocation plan is not outdated. This statement shall be
     submitted within 60 days after the end of that fiscal year.”

The CDHS made organizational changes that impacted the cost allocation plans.
Specifically, the management oversight of the DDS moved from the Office of Direct

16
   POMS DI 39506.210 D.3.
17
   According to OMB Circular A-87, Attachment A, B.10, a cost allocation plan means a central service
cost allocation plan, public assistance cost allocation plan, and indirect cost rate proposal.
18
   OMB Circular A-87, Attachment C, D.1.
Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                                            8
Services to the Office of Self Sufficiency. Therefore, the SFY 2001 plan was outdated
because of organizational changes in SFY 2002 and SFY 2003 which would also
preclude the CDHS from submitting “an annual statement” certifying that the approved
SFY 2001 cost allocation plan is not outdated. The FFY 2001, 2002, and 2003 indirect
costs were allocated to the CO-DDS based on the outdated FFY 2001 approved indirect
cost allocation plan. Therefore, there is a risk the indirect costs will be improperly
allocated to the CO-DDS when the CDHS does not have a current approved cost
allocation plan.

Code of Federal Regulations, Title 45, section 95.519 states, “If costs under a Public
Assistance program are not claimed in accordance with the approved cost allocation
plan…, or if the State failed to submit an amended cost allocation plan as required by
Sec. 95.509, the costs improperly claimed will be disallowed.” Therefore, a maximum of
$2,173,725 may be disallowable for SFY 2002 and SFY 2003, as follows.

         FFY 2001 (Fourth quarter only)              $358,898
         FFY 2002 (All quarters)                     1,170,681
         FFY 2003 (First and Second quarters)          644,146

Note: The fourth quarter of FFY 2001 is the first quarter of SFY 2002 (July 2001
through September 2001).

As the SFY 2002 and SFY 2003 cost allocation plans are submitted and approved, SSA
should review the plans and determine how much of this potentially disallowable indirect
cost is allowable and properly allocated to the CO-DDS.

AUTOMATED ALLOCATION PROCESS

The CDHS used an automated software package to allocate costs under its indirect cost
allocation plan. The CDHS did not accurately update the automated software in
accordance with the approved SFY 2000 and SFY 2001 indirect cost allocation plans.
Therefore, for SFY 2000 and SFY 2001, the automated allocation was not consistent
with the approved indirect cost allocation plans. Also, the approved SFY 2000 and
SFY 2001 indirect cost allocation plan allocated indirect costs to the DDS in a manner
not consistent (rational correlation) with the amount of benefit received. The CDHS
should ensure that the indirect cost allocation method used (manual or automated), is
implemented in accordance with the approved indirect cost allocation plans and that the
cost allocation plan allocates cost to the DDS in rational correlation to the amount of
benefit received.




Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                            9
The total amount disallowed for all 6 years as a result of this finding is $237,059 as
follows:

                     Federal           Automated Allocation Process
                   Fiscal Year           Erroneously Implemented
                  1996 (4th Qtr)                                   $5,689
                      1997                                         22,303
                      1998                                         25,178
                      1999                                         30,828
                      2000                                        112,783
                      2001                                         40,278
                      Total                                     $237,059

Note: The fourth quarter of FFY 1996 is the first quarter of SFY 1997 (July 1997
through September 1997).

For FFYs 2000 and 2001, we questioned $112,783 and $40,278 of the indirect costs
claimed, respectively. We only questioned costs during the first 3 quarters of FFY 2001
because we addressed FFY 2001 fourth quarter costs and the FFY 2002 costs under a
previous finding, Submission of Cost Allocation Plans. We found the automated
software erroneously allocated building lease costs and building services to the
CO-DDS for a building it did not use. In addition, the software erroneously excluded
some divisions that should have been allocated costs, and erroneously included others
that should not have been allocated costs. We netted the impact of these errors to
arrive at our questioned costs.

As a result of the issues identified for these 2 years, we expanded the scope of our
review to determine the impact on prior years. For FFY 1996 through FFY 1999, we
questioned $83,998 of the indirect costs claimed. We reviewed costs allocated back to
the fourth quarter of FFY 1996 (the first quarter of SFY 1997). Prior to that time the
CDHS used an allocation rate rather than a cost allocation plan. We again found
building services were erroneously allocated to the CO-DDS for a building it did not use
for FFY 1996 through FFY 1999.

ALL OTHER NON-PERSONNEL COSTS

The category for “All Other Non-personnel Costs” includes occupancy (leases),
contracting, electronic data processing equipment and maintenance, communication,
travel, supplies, and miscellaneous costs. These costs are reported as obligated on a
separate line item on the Form SSA-4513. An obligation should be recorded in the



Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                               10
appropriate funding year.19 For example, POMS states, in part, that “…the monthly
rental obligation should be obligated at the beginning of each month….”20

CO-DDS did not follow these POMS requirements. For the 3 FFYs we reviewed, we
found 31 transactions totaling $119,179.88 were recorded in the wrong FFY. These
transactions were for various items such as lease payments and equipment
maintenance. Based on the items we reviewed, the following net adjustments should
be made:

                      Federal Fiscal      Amount of Adjustment
                          Year                 Needed
                           1999                   $23,565
                           2000                    (85,085)
                           2001                    30,836
                           2002                    30,684

Each FFY SSA gives the DDS an obligational authority which is a monetary limit
approved for State agency obligations to be incurred for SSA disability program
operations. Recording transactions in the wrong FFY will cause the balance of the
obligational authority to be misstated. We did not complete a 100 percent review of
items in this area and, as a result, there may be additional items recorded in the wrong
FFY that were not identified by our review. Additional adjustments would be required
for these items.

CASH DRAWS
The State Agency Obligational Authorization for Disability Programs (Form SSA-872) is
the official document that authorizes the State to incur obligations against Federal funds
to meet its approved necessary costs.21 The Form SSA-872 notifies the State agencies
of the funding that may be obligated or expended by the State and the dates covered by
the funding.22 The State agency uses the ASAP system to draw funding from Treasury
for program expenditures for CO-DDS. Based on changes on the Form SSA-872, SSA
initiates the transactions to increase/decrease available funds in ASAP for the CDHS to
draw. The Form SSA-872 and accumulated authorizations in ASAP should agree. On
September 30, 2002, the accumulated authorizations in ASAP did not agree with the
authorizations reported on the Form SSA-872 for FFY 2000 when both reports were
compared. We found $50,670 more in authorizations for FFY 2000 in ASAP than
reported on the Form SSA-872 as of September 30, 2002.

We further found two draws made on December 1, 2000, applied to the wrong FFY.
One draw of $61,949 for FFY 2001 expenses was drawn from FFY 2000 funds. A

19
   POMS DI 39506.200 B.1.
20
   POMS DI 39506.201 E.3.
21
   POMS DI 39506.100 A.1.
22
   Id.
Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                              11
second draw of $8,418 for FFY 2000 expenses was drawn from FFY 2001 funds. As a
result, the balance in ASAP for both FFYs was misstated – FFY 2000 understated and
FFY 2001 overstated – by the net difference, $53,531. The errors remained undetected
until we brought it to the attention of the CDHS. The CDHS took immediate corrective
action. CDHS stated that the person performing the draws was new to the operation,
and they further stated that steps were taken to improve the internal controls process of
the cash draws for current years.

Additionally, after the incorrect transactions on December 1, 2000, SSA reduced the
CO-DDS authorization on the SSA-872 for FFY 2000. However, there were not enough
funds in ASAP to reduce the authorization for the entire amount. SSA only made a
partial reduction of the authorization effectively bringing the net amount in ASAP to zero
balance. SSA did not follow up with the CDHS to determine why the SSA-872
authorizations for FFY 2000 did not agree with authorization in ASAP for FFY 2000.
However, once the CDHS made its correction, SSA then reduced the authorization
amounts in ASAP for FFY 2000.

INTERNAL CONTROLS OVER CHECKS

The CO-DDS did not use direct deposit to pay for medical evidence, consultative
examinations, or claimant travel. Checks were printed by the State accounting office, at
the instruction of the DDS. The State Accounting Office then sent the checks to the
DDS, not directly to the payee. We found internal control weaknesses in the handling of
these checks. These issues could be avoided if direct deposit was used. Direct deposit
is used by the State of Colorado for other items such as DDS employee travel
reimbursement.

CHECKS TO PAYEES

On a rotating schedule, one person in the DDS received the checks from the State
Accounting Office, verified their accuracy, and mailed the checks to the payee. This
work was performed at an individual’s desk and there was no check log. The checks
handled totaled approximately $3.4 million for FFY 2000, $4.0 million for FFY 2001, and
$3.8 million for FFY 2002.

The General Accounting Office’s Standards for Internal Control in the Federal
Government states, in part, that:

     “…key duties and responsibilities need to be divided or segregated among different
     people to reduce the risk of error or fraud. This should include separating the
     responsibilities for authorizing transactions, processing and recording them,
     reviewing the transactions, and handling any related assets. No one individual
     should control all key aspects of a transaction or event.” 23

Without strong internal controls, which include segregation of duties, checks are
susceptible to theft and/or loss.
23
 GAO/AIMD-00-21.3.1 page 14.
Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                              12
UNDELIVERED CHECKS

When undelivered checks were returned to the DDS, they were sent to the information
services (IS) department. The IS department researched the checks and tried to find a
good address. The checks were then re-mailed. We noted that the undelivered checks
were not stamped non-negotiable nor were they recorded in a check log upon receipt in
the DDS. If a check got lost or were stolen, there would be no record of the returned
check, allowing the loss or theft to go undetected.

OMB Circular Number A-123, Management Accountability and Control, states, in part,
that “…management controls must provide reasonable assurance that assets are
safeguarded against waste, loss, unauthorized use, and misappropriation.”24 Without
strong internal controls, checks are susceptible to theft and loss.

OTHER MATTERS
SSA has identified other instances of DDSs using unlicensed/uncertified medical
providers to perform CEs. We did not test for use of unlicensed/uncertified medical
providers as part of this audit. However, we are bringing the issue to CO-DDS
management’s attention and are advising them to take the appropriate steps to ensure
that they are only using the services of licensed/certified medical providers.




24
 OMB Circular A-123, Attachment II, Establishing Management Controls, June 21, 1995, p. 6.
Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                                   13
                                        Conclusions and
                                           Recommendations
We determined that SSA should be reimbursed for certain costs claimed by the
CO-DDS. We also identified areas where internal controls were weak and could be
improved.

We recommend SSA instruct the CO-DDS to:

1.     Stop paying for CEs in excess of CO-DDS’ established fee schedule and
       reimburse SSA $187,740 for the excess payments made during our review.
       Further, the CO-DDS should calculate excess payments for FFY 2003 and
       reimburse SSA for that amount. (BASED UPON CDHS’ COMMENTS, THIS
       RECOMMENDATION IS BEING WITHDRAWN AND REPLACED WITH
       RECOMMENDATION 12.)

2.     Update its fee schedule in accordance with POMS on an ongoing basis. Further,
       the methodology for establishing and updating rates of payment should be
       documented and maintained.

3.     Stop paying for “no show” appointments or apply for an exemption and reimburse
       SSA for the $272,830 paid for “no shows” for FFYs 2000 through 2002 and any
       subsequent payments for FFY 2003.

4.     Ensure that the method CDHS uses to allocate the indirect costs is consistent
       with the approved indirect cost allocation plan and more precise descriptions of
       the allocation methodology are provided.

5.     Ensure the CDHS submits its cost allocation plans to HHS for SFY 2003
       immediately. When the SFY 2002 and 2003 plans are approved, SSA and the
       CDHS need to ensure that the $2,173,725 in indirect costs already claimed have
       been paid in accordance with the approved plans. SSA should ensure that any
       amounts it determines to be unallowable or not properly allocated in accordance
       with approved plans are refunded to SSA or offset against subsequent claims.

6.     Ensure the CDHS develops a process to submit future cost allocation plans
       timely to HHS for approval. SSA should proactively ensure that the cost
       allocation plans are submitted in a timely manner and properly implemented.

7.     Refund $237,059 to SSA caused by inconsistencies between the automated
       allocation process and the approved indirect cost allocation plan.

8.     Record obligations in accordance with POMS and adjust the accounting records
       for all other non-personnel costs.
Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                                14
9.     Instruct the CDHS to emphasize better internal controls to ensure that the cash
       draws are posted to the correct FFY.

10.    Consider using direct deposit to pay its vendors. In the meantime, internal
       controls over paper checks should be strengthened by ensuring there is a
       segregation of duties and a check log.

We recommend SSA:

11.    Improve its oversight of CE fees and limit future payments to the highest rate
       allowed by Federal or other agencies in the State.

12.    Seek an Office of General Council legal opinion as to whether individual
       negotiated contracts for consultative examinations constitute a fee schedule in
       accordance with POMS and Federal regulations. After this is done, OD should
       establish a policy on contracts with vendors and individuals for consultative
       examinations and ensure that the policy is implemented consistently across SSA
       regions.

AGENCY COMMENTS
SSA agreed with nine of the eleven recommendations in our draft report. It did not
agree with two recommendations. SSA disagreed with recommendation 1 for the
CO-DDS to reimburse SSA for paying CEs in excess of its fee schedule. SSA stated
that the contracts to certain providers should be included as part of the fee schedule.
SSA also disagreed with recommendation 3 for the CO-DDS to stop paying for “no
shows” and reimburse SSA for amounts paid for “no shows.” SSA stated that it believes
the CO-DDS pays an administrative fee, which is allowed, and this is simply an error in
coding the costs. The full text of SSA’s comments is included in Appendix C.

CDHS COMMENTS
CDHS agreed with six of the eleven recommendations in our draft report and partially
agreed with one recommendation. CDHS did not agree with three recommendations.
The recommendations the CDHS disagreed with are recommendations regarding
paying CEs in excess of the fee schedule, paying for “no shows,” and refunding
$237,059 to SSA caused by inconsistencies between the automated allocation process
and the approved indirect cost allocation plan.

CDHS partially agreed with recommendation 2 regarding updating and documenting its
fee schedule. CDHS believes there is adequate documentation for the DDS fee
schedule, and noted that SSA is provided annual CE oversight reports. However,
CDHS stated that it has initiated a more formal procedure to review the fee schedule at
the end of the Federal FY and notify SSA of any changes. In addition, CDHS took
exception to our finding that CE fees were paid in excess of the Medicare fee schedule.
CDHS felt that Medicare rates were not comparable to the CO-DDS rates. However,
we did not make a specific recommendation on this matter.

Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                               15
CDHS disagreed with reimbursing SSA for paying CEs in excess of its fee schedule. It
stated that the CO-DDS uses bid contracts for any vendor whose services are likely to
exceed $25,000 in the FY. The CO-DDS considers the bid contracts in force to be
included in the “fee schedule” for services provided by vendors. Therefore, CEs that
were paid according to the bid contracts were not in excess of the fee schedule. CDHS
also disagreed with our recommendation to discontinue paying for “no shows.” It stated
that SSA regulations allow for reasonable administrative fees. Lastly, CDHS disagreed
with our recommendation to refund $237,059 due to inconsistencies in implementing the
indirect cost allocation plan. CDHS believes that the allocation in question adheres to
the approved cost allocation plans.

The full text of CDHS’ comments is included in Appendix D.

OIG RESPONSE
Regarding recommendation 1, CDHS stated that the CO-DDS has separate contracts
with vendors with established fees that are part of the CO-DDS fee schedule. However,
at the time of our field work the CO-DDS provided the “general fee schedule” as the
official fee schedule. We do not agree that individual negotiations with individual
doctors constitute a fee schedule. However, because the CO-DDS demonstrated that
the SSA regional office was aware of these individual negotiated contracts, we have
withdrawn our recommendation. However, we still maintain that the CO-DDS needs to
update its general fee schedule in accordance with POMS on an ongoing basis as
stated in recommendation 2. The methodology for establishing and updating rates of
payment should be documented and maintained. Lastly, SSA needs to seek an Office
of General Counsel legal opinion on the issue of allowing individual negotiated contracts
for consultative examinations to determine if this in fact constitutes a fee schedule in
accordance with POMS. We have added a recommendation addressing this issue.

Regarding recommendation 2 and our finding that CE fees were paid in excess of the
Medicare fee schedule, the CDHS did not agree with comparing the CO-DDS fee
schedule to the Medicare fee schedule. However, subsequent to our audit, the
CO-DDS sent the SSA regional office its updated fee schedule compared to the fee
schedule published by the Department of Labor for the last 4 years. This comparison is
acceptable in accordance with Federal regulations,25 which permit the use of fee
schedules where the rate does not exceed the highest rate paid by Federal or other
agencies in the State for the same or similar type of service.

Regarding recommendation 3, CDHS maintains that that the fee paid for “no show”
appointments is an administrative fee paid for costs incurred prior to the actual
examination. However, during our fieldwork, we reviewed invoices submitted for “no
shows.” The majority of the invoices reviewed only had “no show” written on them and
did not contain a request for payment for review of medical records. If the CO-DDS
wants to continue the practice for paying for “no shows” we recommend it follow the
directive issued on April 25, 2000, and request an exemption to the no-pay policy from
the Office of Disability.

25
 20 C.F.R. §§ 404.1624 and 416.1024.
Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                             16
Regarding recommendation 7, the CDHS’ comments did not address the
inconsistencies between the automated allocation process and the approved cost
allocation, but instead only addressed whether the indirect costs allocated to the
CO-DDS are consistent with the amount of benefit received. The CDHS refers to
services provided at its building in Denver, Colorado including building and grounds
maintenance, custodial, and laundry/linen services. The CDHS believes that these
services are appropriately allocated to the CO-DDS. In our opinion, the allocation of
these services to the CO-DDS based on full time equivalent employee counts is not fair
or reasonable despite the fact that it was approved by DCA. We do not believe that the
services provided at the CDHS building in Denver, Colorado benefit the employees of
the CO-DDS in Aurora, Colorado. In addition, the FY 2000 and 2001 Public Assistance
Cost Allocation Plans correctly did not allocate the lease costs for the CDHS building to
the CO-DDS. It is not reasonable to exclude the lease costs for the CDHS building from
allocation, but still allocate the services associated with that building to the CO-DDS.




Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                             17
                                           Appendices




Administrative Costs Claimed by the CO-DDS (A-15-03-13044)
                                                      Appendix A

                              April 25, 2000
                     SOCIAL SECURITY ADMINISTRATION
                          OFFICE OF DISABILITY



DISABILITY DETERMINATION SERVICES ADMINISTRATORS’ LETTER NO.536


TO      : State Disability Determination Services
          Administrators


SUBJECT: SSA Policy on Payment for Missed Consultative
Examination Appointments--ACTION



The purpose of this letter is to clarify SSA’s policy on
payments for missed consultative examinations (CEs).

Issue

We understand a few disability determination services (DDSs)
are now requesting regional office (RO) assistance in
allowing payments for missed CE appointments. Typically,
these involve localities with sparse population and provider
density where DDSs are experiencing difficulty in recruiting
and retaining CE panelists in certain specialties.

Background

In December 1987, the Office of Inspector General issued a
report, “Payments Under the Disability Determination Program
for Medical Appointments Made by Claimants of Disability
Insurance and Supplemental Security Income Benefits.” This
report recommended that SSA pursue a policy of not paying for
broken CE appointments.

SSA agreed to adopt a no-pay policy for missed CE
appointments. However, OD recognized that exceptions to the
no-pay policy may occur (e.g., another agency within the
State allows a payment for missed CEs, inability to recruit
or keep a certain type of provider, etc.). Additionally, the
no-pay policy does not affect SSA’s policy of allowing a
nominal fee to compensate the consultative examiner who
reviewed background medical records prior to the missed CE.
 Administrative Costs Claimed by the CO-DDS                  A-1
Conclusion

While the no-pay policy for missed CE appointments has not
changed, OD recognizes the need to refine and formalize the
process of allowing exceptions to this policy. Therefore, to
request an exemption to the no-pay policy for missed CE
appointments, please work with your RO to document the unique
situation for audit purposes.

Once you and the RO agree that an exemption to the no-pay
policy may be warranted, the RO will forward the request and
documentation to OD for final approval. OD will review each
request on a case-by-case basis to ensure that SSA is making
sound fiscal and good business decisions and is consistent in
determining when exceptions apply to the no-pay policy.

If your staff have any questions, they should contact the
Professional Relations Coordinator in your RO.



                    /s/
                    Kenneth D. Nibali
                    Associate Commissioner
                      for Disability


cc:
All Regional Commissioners




  Administrative Costs Claimed by the CO-DDS                A-2
                                                                  Appendix B

Costs to Be Reimbursed to SSA

            Consultative         Automated
Federal      Examination          Allocation
                                                       Total
 Fiscal     Fees Paid for          Process
                                                    Adjustments
  Year         Missed            Erroneously
            Appointments        Implemented
  1996            N/A               $5,689              $5,689
  1997            N/A               22,303              22,303
  1998            N/A               25,178              25,178
  1999            N/A               30,828              30,828
  2000          $93,875            112,783             206,658
  2001           90,230             40,278             130,508
  2002           88,725               N/A               88,725
  Total        $272,830            $237,059           $509,889




Administrative Costs Claimed by the CO-DDS (A-15-03-13044)
                                                             Appendix C

Agency Comments




Administrative Costs Claimed by the CO-DDS (A-15-03-13044)
                                       SOCIAL SECURITY

MEMORANDUM


Date:       December 4, 2003                                                       Refer To: S2G8B4:RC

To:         Steven L. Schaeffer
            Assistant Inspector General
             for Audit
From:       James C. Everett
            Regional Commissioner, Denver
Subject:    Administrative Costs Claimed by the Colorado Disability Determination Services (A-15-03-
            13044) (your memo dtd 10/16/2003)--REPLY



           We thank you for the opportunity to review the draft audit findings for the audit performed at the
           Colorado DDS. Specifically, you found three audit exceptions.

           The first was that consultative examination (CE) fees paid were in excess of the fee schedule;
           specifically in excess of the Medicare fee schedule. The State of Colorado requires that all
           volume providers earning in excess of $25,000 must have contracts awarded under the State
           bidding process. These contracts are supervised by the State purchasing office. The consultative
           examinations purchased by the DDS fall under this process when any doctor providing the
           services earns in excess of $25,000 for services. This process may be lower or higher than any
           fee schedule and the bids should be included in the schedule used for comparison. .

           The second was that CE providers were paid for missed appointments which is not permitted
           according to the DDS Administrators’ Letter No 536. Payment for missed appointments is not
           permitted, per se, but an administrative fee is permitted. The DDS does pay an administrative
           fee to the provider. The error here is that the fee has been miscoded in the records and these
           were coded as missed rather than as an administrative fee. We believe that an administrative
           error for coding would be appropriate but not an overpayment error.

           The last exception is based on the failure of the State to submit timely cost allocation plans
           (CAPs). As an example, the State did not release the State fiscal year 2003 CAP for
           consideration until October 3, 2003. We have been advised by the HHS Division of Cost
           Allocation in San Francisco, California, that they have repeatedly advised the State, without
           success, that they are not meeting the deadlines in submission of their CAPs. The division has
           also advised that the State can only begin charging the new fees when a new plan is published
           but may have to refund SSA and other Operating Divisions if the plan is not approved. In this
           case, they can now charge the 2003 fee. As far as the audit exception is concerned, we believe it
           should stand and let the State defend its position.


           Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                             C-1
If you have any questions or concerns, please call me. Staff contact is Bob Carmichael,
telephone (303) 844-4878.




Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                           C-2
                                                             Appendix D

CDHS Comments




Administrative Costs Claimed by the CO-DDS (A-15-03-13044)
                                                                                 STATE OF COLORADO



1575 Sherman Street                                                                                                                            Bill Owens
Denver, Colorado 80203-1714                                                                                                                     Governor
Phone 303-866-5700
www.cdhs.state.co.us                                                                                                          Marva Livingston Hammons
                                                                                                                                       Executive Director




           Mr. Steven L. Schaefer
           Assistant Inspector General For Audit
           Social Security Administration
           Financial Audit Division
           Baltimore, MD 21235-0001

           Dear Mr. Schaeffer:

           We have enclosed a copy of our audit responses for Colorado Disability Determination
           Services. Our objectives are to comply with the federal rules and regulations as well as the
           state’s requirements and provide the best service to our clients.

           Even though we do not concur on some of the recommendations, which are clearly stated in our
           response, the department has taken the necessary steps to implement the recommendation on the
           internal control. The department is willing to work closely with SSA to resolve the contested
           findings and reach desirable results.

           If you wish to discuss the responses, please contact Bill Wagner at 303-752-5660 or Mariam
           Habtemariam at 303-866-3625.


                                                                       Sincerely




           Enclosure

           Cc:
           William Starks, Director, Disability Determination Services



              Our Mission is to Design and Deliver Quality Human Services that Improve the Safety and Independence of the People of Colorado

          Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                                                                       D-1
COLORADO DISABILITY DETERMINATION SERVICES (CO-DDS)
        RESPONSE TO RECOMMENDATIONS


Consultative Examinations

Recommendation #1: “ Stop paying for CEs in excess of CO-DDS’ established fee schedule and
reimburse SSA $187,740 for the excess payments made during our review. Further, the CO-DDS should
calculate excess payments for FFY 2003 and reimburse SSA for the amount”

As CO-DDS explained when the auditors were on site, the State of Colorado requires the DDS to use a
formal contract procedure called “Best Value Bid” (BVB) for any vendor whose services are likely to
exceed $25,000 in the Fiscal Year. The BVB procedure was implemented as required by the State
Auditor in 1999. A copy of that audit was provided to the SSA Regional Office. The Regional Office
followed up on the audit findings to confirm that the DDS had made the changes identified in that audit.
The DDS notified the Regional Office when the DDS reached compliance with the audit findings,
including the use of the BVB process for volume medical providers. At no time did the Regional Office
indicate that such a process was out of compliance with SSA rules. In fact the Regional Commissioner
notified the SSA Deputy Commissioner for Finance, Assessment, and Management in a June 2, 1999
memorandum that the CO-DDS had resolved the audit recommendations, including BVB from medical
providers to conduct consultative examinations.

CO-DDS bid contracts are in force, and the fees included in the bids are the “fee schedule” for services
provided by those vendors. The CO-DDS fee schedule documents the specific fees to those vendors
(volume providers) selected through the BVB process. Those contracts are reviewed and renewed every
fiscal year. Non-volume medical vendors were assigned a fee based on the general schedule in place
prior to the BVB process. Those vendors were essential to provide examinations in those areas were
BVB bids were not received.

The auditors cite POMS DI 39545.210 1 c “The State will maintain documentation to support the rates
of payment it uses.” They state that DDS did not have an updated official fee schedule, so that
payments to those vendors were outside of the last official fee schedule, and were therefore
disallowable. That is not the case; the contracts with these vendors are very well documented and are
part of the CO-DDS fee schedule.

 The POMS also allows for special fees if a DDS has difficulty obtaining services in rural or outlying
areas. Those fees are reflected in the DDS fee schedule as well.

The POMS citation also states that the State will determine its fee schedule. The State Controller
requires the DDS to have a BVB for purchases of services over $25,000. The establishment of those
contracts is the determination of the fee schedule for the purchased services. Comparing the BVB
schedules to the general fee schedule seems inappropriate. The DDS maintains and updates the
contracts as part of its fee schedule determination.

The draft report alleges the DDS has not reviewed its entire fee schedule since 1989, and that the
proscribed processes have not been followed to advise the SSA Regional Office of the existing fees.
The DDS provides SSA a fee schedule review through annual CE oversight reports to the Regional
Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                                        D-2
Office. Those reports provide a status of the DDS fee schedule each year. The DDS has initiated a
more formal procedure to review the fee schedule at the end of the Federal Fiscal Year, and to notify
SSA’s Regional Office of any changes.

Recommendation #2: “Update its fee schedule in accordance with POMS on an ongoing basis.
Further, the methodology for established and updating rates of payment should be documented and
maintained”

The auditors cite the results of a workgroup that was convened in 1999 that had as one result a statement
that the DDS fees:
 “shall be based on the Medicare fee schedule for the same or similar types of service.” Despite an
extensive review of the POMS, RDIM and agency letters, the DDS is unable to find that the
recommendations of the workgroup were ever promulgated by SSA. CO-DDS is guided by the POMS,
RDIM and agency letters in its operations, not workgroup recommendations.

POMS 39545.210 1 a states:
 “The State will determine the rates of payment for medical or other services that are necessary to make
a disability determination.”
POMS 3945.210 1 c states:
 “The rates may not exceed the highest rate paid by Federal or other agencies in the State for the same
or similar types of service. The State will maintain documentation to support the rates of payment it
uses.”

On October 2, 2003 the DDS sent the Regional Office its updated fee schedule compared to the fee
schedule published by Department of Labor (DOL) for the last four Fiscal Years. The Regional Office
provided the DDS with the DOL fee schedule and aided us in establishment of a relationship with DOL
that will permit us to do comparative analysis with their fees in a relatively easy manner.

The citation above says in part that the DDS cannot exceed the highest comparable fee paid by either
State or Federal agencies that obtain the same or similar evidence. During the audit, the auditors
selected the Medicare rates, which are some of the lowest rates and which are usually obtained for
treatment purposes rather than evaluation of disability. The DOL obtains information for evaluation of
disability and it can be argued, the DDS believes persuasively, that their rates are for services that
compare more favorably to like services sought by the DDS. At a minimum, the DOL rates are at least
as pertinent as the Medicare rates.

Examples in the auditors’ findings compare DDS fees for specialty examinations and for Speech and
Language evaluations, and find our fees to be in excess of Medicare by a total of $1,126,171. In
comparing those same fees to the DOL fee schedule for the same periods, the DDS finds that our fees
were substantially below DOL fees for those same periods.

It is the DDS position that our fees are in compliance with POMS 3945.210 1 c. Using the DOL fee
schedule provided to us by SSA’s Regional Office, DDS fees were substantially less in comparison.
DDS fees for medical evaluations range from 8.8% to 54.8% below the DOL fee. CO-DDS contends
that we were not paying higher fees than another Federal agency that procures evidence for the same
purposes as DDS.

       DI 39545.210 Fee Schedules
Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                                       D-3
           POLICY

           The following policy is for determining fee schedules:

          1. General

           a. The State will determine the rates of payment for medical or other
             services that are necessary to make a disability determination.

           b. The DDS will consider its fee schedule as a maximum payment schedule.
             Authorized payments will represent the lower of either:

           o the provider's usual and customary charge or,

           o the maximum allowable charge under the fee schedule.

           c. The rates may not exceed the highest rate paid by Federal or other
             agencies in the State for the same or similar types of service. The
             State will maintain documentation to support the rates of payment it
             uses. (See DI 39545.410 for guides on monitoring, maintenance, and
             reporting fee schedules).

           d. The rates must be consistent with the cost principles set forth in 48
             CFR 31.6 of the Federal Acquisition Regulations System and Office of
             Management and Budget Circular A 87. That is, the rates must be
             reasonable and necessary for the efficient administration of the
             program.




Recommendation #3: Stop paying for no show appointments or apply for exclusion and reimburse SSA
for the $272,830 paid for no shows for FFYs 2000 through 2002 and any subsequent payments for FFY
2003.

      A. No exemption is needed because the SSA rules1 allow for reasonable administrative fees to be
         paid to a Consultative Examination (CE) vendor. The DDS CPT code (#999) for this service
         was listed on its fee schedule at the time of the audit as “Review of medical records”. The
         purpose of the fee is to reimburse the CE vendor for the administrative costs associated with the
         examination. Most important are those costs related to reviewing the CE authorization document
         and any associated medical records provided by the DDS. The administrative costs would also
         include but are not limited to: scheduling the appointment, telephone calls with the DDS and/or
         claimant, preparing a case folder (chart), filing documents, and mailing information. The
         majority of these activities occur prior to the actual examination.


1
    DDSAL-536: SSA Policy on Payment for Missed Consultative Examination Appointments.
Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                                        D-4
      B. The DDS annual oversight reports provided to the Regional Office routinely mention that the
         DDS pays $25 for “review of medical records”. The DDS routinely provides notification of this
         fee, which has not been previously challenged.

The SSA auditors appear to interpret the citation to say that the CO-DDS cannot make payment of any
kind when a missed appointment occurs. The DDS believes this to be in error as the citation specifically
allows administrative fees:
 “Additionally, the no-pay policy does not affect SSA’s policy of allowing a nominal fee to compensate
the consultative examiner who reviewed background medical records prior to the missed CE.”2

It should also be noted that the DDS does not pay this fee unless the CE vendor requests it. The auditors
noted this by acknowledging that the DDS records showed invoices from the vendor. When the DDS
pointed out that the payment was for reasonable costs of administrative services including review of
medical records, the auditors commented that the invoices did not have any such medical records
attached. The DDS in turn pointed out that the vendor would not return the photocopied medical records
as those would either become part of the claimant’s chart, or be destroyed. The DDS was the provider
of the copies in the first place and would have no use for them as the DDS maintained the original
documents.




2
    DDSAL-536: SSA Policy on Payment for Missed Consultative Examination Appointments
Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                                       D-5
Cost Allocation Plans

Recommendation #4: “Ensure that the method CDHS uses to allocate the indirect costs is
consistent with the approved indirect cost allocation plan and more precise descriptions
of the allocation methodology are provided.”

The department will do an annual thorough review of its cost allocation systems to ensure
that the methods used for allocating costs are consistent with the methods described in the
cost allocation plan. The department will also provide more precise descriptions of the
various allocation methods beginning with the SFY04 PACAP.

Recommendation #5: “Ensure the CDHS submits its cost allocation plans to HHS for
SFY03 immediately. When the SFY02 and 2003 plans are approved, SSA and the CDHS
need to ensure that the $2,173,725 in indirect costs already claimed have been paid in
accordance with the approved plans. SSA should ensure that any amounts it determines to
be unallowable or not properly allocated in accordance with the approved plans are
refunded to SSA or offset against subsequent claims.”

“The SFY03 PACAP was submitted to HHS and all federal operating divisions on October
3, 2003. Once the SFY02 and SFY03 plans are approved, CDHS will work in concert with
CDDS and SSA to ensure that all indirect costs claimed for these periods are in
accordance with the approved cost plans and either refund to SSA or offset against
subsequent claims any costs determined to be unallowable or not properly allocated.”

Notwithstanding the delayed submissions of the SFY01, SFY02, and SFY03 cost plans, it
is important to understand that the indirect cost impact to the Colorado Disability
Determination Services (CDDS) is immaterial as the variance between the original and
recast allocations to CDDS is a relatively small amount. In fact, the major changes to the
SFY02 and SFY03 plans relate to the county indirect cost structure for allocating an
average of $250m annually in county indirect costs to state and federal programs other
than CDDS whose services are not conducted in county departments of social services. In
contrast, the organizational changes shifting executive management oversight of the
CDDS program in SFY02 and SFY03 relate to the state indirect cost structure and the
major impact is derived from substituting the prior executive manager’s salary with the
new the executive manager salary. Hence, the indirect cost allocations to CDDS in
SFY02 and SFY03 remain at comparable levels when compared to the allocations based
on the SFY01 approved plan.

Recommendation #6: “Ensure the CDHS develops a process to submit future cost
allocation plans timely to HHS for approval. SSA should proactively ensure that the cost
allocation plans are submitted in a timely manner and properly implemented.”

Timely submission of Cost Allocation Plans in strict accordance with CFR, Title 45,
section 95.509 for SFY01, SFY02, and SFY03 has been problematic for DCHS due to
multiple factors which occurred within a short period of time, namely, a final directive
from the Division of Cost Allocation to recast SFY98, SFY99, SFY00, and SFY01 using
statewide Random Moment Sampling (RMS) statistics in county indirect cost allocations,
followed by major organization changes implemented by a new executive director,

Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                            D-6
followed by turnover of key staff responsible for state and county indirect costs and the
PACAP.

The required retroactive recasts necessarily placed the department in arrears regarding
timely cost plan submissions as efforts were focused on accurate completion of 16
quarters of recasts. This effort was further complicated by the fact that SFY98 and SFY99
data resided in old legacy systems while SFY00 and SFY01 data resided in a new County
Fiscal Management System that was implemented in SFY00.

Through the process of recasting SFY98-SFY01 county indirect costs and the process of
responding to state fiscal and program staff regarding the detail to support state indirect
cost allocations, the department’s cost accounting unit has developed a strong knowledge
base regarding OMB Circular A-87 PACAP requirements as well as the existing state and
county indirect cost structures, pools, bases and systems. The unit is working to
incorporate all recommendations that resulted from the October 2002 DCA cost allocation
review in the SFY04 PACAP with a realistic target submission date of December 31,
2003, after which the department will begin updating the PACAP to reflect any
anticipated changes for SFY05. A realistic target submission date for the SFY05 PACAP
is March 31, 2004.

Recommendation #7: “ Refund $237,059 to SSA caused by inconsistencies between the
automated allocation process and the approved indirect cost allocation plan.”

Of the $237,059.00 recommended refund to SSA, $83,998 is from an isolated allocation
that indeed adheres to the approved cost plans for the Federal Fiscal year periods 1996
(4th Qtr) through 1999, which are also periods outside the scope of the audit.
Additionally, the major portion of the remaining netted balance of $153,061.00 for the
Federal Fiscal year periods 2000 and 2001 is attributable to the same isolated allocation
which again adheres to the approved cost plans for these periods. The department does
not concur with the OIG audit staff’s determination that the isolated allocation in
question is a rational correlation, nor does it agree with OIG’s treatment of the rational
correlation as an erroneous allocation. In fact, the isolated allocation adheres to the same
methodology repeatedly submitted, reviewed and approved by DCA and all federal
operating divisions during the negotiation periods for the 1996-2001 cost plans. Thus, the
department maintains its original position that using full time equivalent employee counts
to allocate building services that benefit the central building indirect staff, who provide
services to CDDS, is fair and reasonable. Finally, of the $153,061.00 netted balances for
2000 & 2001, there is neither evidence of misallocations nor the respective amounts
unrelated to the isolated allocation discussed above.




Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                              D-7
All Other Non-Personnel Costs



Recommendation #8: “Record obligations in accordance with POMS and adjust the
accounting records for all other non-personnel costs.”

To ensure that obligations and transactions are recorded in the appropriate funding year,
accounting has mandatory requirement that all transaction coding for new FFY grant is
provided to program staff as well as accounting staff in advance. Therefore any
encumbrances that will continue through the new federal year are coded correctly and
transactions are coded in the appropriate year. In addition the Program Accountant is
diligently reviewing all transactions before approving any transactions and perform
appropriation analyses before period close.



Cash Draws

Recommendation #9: Instruct CDHS to emphasize better internal controls to ensure
that the cash draws are posted to the correct FFY.

As accounting explained when the auditors were on site, the cash management
accountant being new and staffs turn over had significant impact on the cash draw down
process. Since then the cash management accountant and the program accountant had
extensive training on the process of draw down as well as how to reconcile the ASAP
amount to Colorado Financial Reporting System amount. The program accountant
receives weekly report from the ASAP and reconciles the amount to the grant module in
COFRS as well as the receivable account and work closely with the cash management
accountant.



Internal Control Over Checks

Recommendation #10: Consider using direct deposits to pay its vendors. In the
meantime, internal controls over paper checks should be strengthened by ensuring there
is a segregation of duties and check log”

DDS and the Division of Accounting are in the process of researching the cost of
contracting with the Colorado Department of Personnel and Administration’s Mail
Services to match remittance advices with the corresponding warrants (checks) to service
providers, fold, stuff the envelopes, and send the warrants out. The warrants would go
directly from the State Accounting Office to Mail Services and DDS would send the
remittance advices to Mail Services for matching. The persons at DDS processing
payments would no longer receive any warrants.

The auditors correctly analyzed the processes used by DDS to handle warrants that have
been returned as undeliverable. The warrant is given to a data base specialist in the
Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                             D-8
Information Services section where the vendor address is researched and the warrant is
re-mailed if appropriate, or is returned to State Accounting if the address cannot be
found. The auditors point out that there is no log prepared showing that the checks were
returned as undeliverable, and that a lost or stolen check could go undetected. In
response to this finding, we have initiated a procedure where a log will be maintained by
the data base specialist, who will enter into a log with the headings: Date Received,
Warrant Number, Amount, Payee, Action Taken, and Date Action Taken. DDS believes
that this will adequately resolve the issue pointed out by the auditor.




Administrative Costs Claimed by the CO-DDS (A-15-03-13044)                            D-9
                                                                Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Frederick C. Nordhoff, Director, Financial Audit Division (410) 965-6676

   Victoria Vetter, Audit Manager, Financial and Compliance Audits
   (410) 966-9081

Acknowledgments
In addition to those named above:

   Lance M. Chilcoat, Auditor-in-Charge

   Kristen Schnatterly, Auditor-in-Charge

   Judith Kammer, Auditor

   Mark Meehan, Auditor

   Donna Parris, Auditor

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig
or contact the Office of the Inspector General’s Public Affairs Specialist at
(410) 966-1375. Refer to Common Identification Number A-15-03-13044.




Administrative Costs Claimed by the CO-DDS (A-15-03-13044)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform
and Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House
of Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S.
Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and
Human Services, Education and Related Agencies, Committee on
Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
Regional Commissioner, Denver
Director, Colorado Disability Determination Services
Executive Director, Colorado Department of Human Services




Administrative Costs Claimed by the CO-DDS (A-15-03-13044)
                       Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.
                                       Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                  Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
